No.

31n MO

is•uprente Court of the intteb *Mao
•
KHASHON HASELRIG,
Petitioner,
vs.
STEPHANIE INSLEE,
Respondent.

•
On Petition For A Writ Of Certiorari
To Division I Of The
Court Of Appeals Of Washington
•
PETITION FOR WRIT OF CERTIORARI
•
KHASHON HASELRIG, PRO SE

809 NW 153 Terrace
Edmond, Oklahoma 73013
(405) 618-2722

RECEIVED
JAN 3 1 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

1

QUESTIONS PRESENTED
Did the Washington Court err in finding that
an infirmity in due process is cured by denial of a motion seeking to correct it and violate the 14th Amendment of the United States Constitution and contravene
Armstrong v. Manzo (1965)?
Did the Washington Court err against public
policy by not recognizing a good faith and probable
cause exception to in terrorem clauses as adopted by
most jurisdictions, the Uniform Probate Code, and the
Restatement to the forfeiture clause in this missing
2015 will?
Does enforcing an in terrorem clause against
a beneficiary who is complaining of the misconduct,
malfeasance, or mistake of a personal representative,
without checking the claim's validity simply because
the clause is generally enforceable violate public policy,
the Washington State Constitution, and the United
States Constitutional due process provisions?

11

LIST OF PARTIES
All parties do not appear in the caption of the case
on the cover page. A list of all parties to the proceeding
in the court whose judgment is the subject of this petition is as follows:
Khashon Haselrig
Stephanie Inslee
Indira Raichoudhury
Linda Borland
The University of British Columbia was not a
named party in the lower courts, but was named in
Margaret Rai-Choudhury's will.
RELATED CASES
In re the Estate of Margaret Rai-Choudhury, No. 16-400659-4 Index #11, Whatcom County District Court.
Order entered December 19, 2016
In re the Estate of Margaret Rai-Choudhury, No. 16-400659-4 Index #39, Superior Court of Whatcom County,
Washington. Judgment entered February 10, 2017
In re Estate of Margaret Rai-Choudhury, No. 17-200481-9, Superior Court of Whatcom County, Washington. Judgment entered June 30, 2017
In re the Estate of Margaret Rai-Choudhury, No. 16-400659-4 Index # 75, Superior Court of Whatcom
County, Washington. Judgment entered August 25,
2017

111

RELATED CASES—Continued
In re the Estate of Margaret Rai-Choudhury, No. 16-400659-4 Index #93, Superior Court of Whatcom
County, Washington. Judgment entered November 3,
2017
In the Matter of the Estate of Margaret RaiChoudhury, No. 77740-8-I Washington State Court of
Appeals Division I. Judgment entered February 25,
2019
In the Matter of the Estate of Margaret RaiChoudhury, No. 97124-2 Washington State Supreme
Court. Judgment entered September 4, 2019

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED
LIST OF PARTIES

ii

RELATED CASES

ii

TABLE OF AUTHORITIES

vi

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
2
STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE PETITION

8

Jurisdictional Defects From Lack Of Notice

8

Public Policy Exception

12

In Terrorem Clause For Executor Misconduct

17

CONCLUSION

21

APPENDIX
APPENDIX A
Decision of Washington State Court of Appeals
Div I Feb 25, 2019
App. 1
APPENDIX B
Decision of WA State Probate Court Aug 25
2017
App. 9

V

TABLE OF CONTENTS—Continued
Page
APPENDIX C
Decision of State Supreme Court Denying Review Sep 4, 2019
App. 13
APPENDIX D
Probate Order Nov 3 Judicial Determination of
Will Contest
App. 14
APPENDIX E
Decision of Washington State Court Feb 10,
2017
App. 17
APPENDIX F
Dec 19, 2016 Order Admitting Copy of Missing
Will
App. 21
APPENDIX G
Missing Will Signed into Probate Dec 19, 2016

App. 25

APPENDIX H
Response Indira June 19, 2017 pg. 53 Nov 30,
2015 Cremation Authorization
App. 42

vi
TABLE OF AUTHORITIES
Page
CASES
Armstrong v. Manzo, 380 U.S. 545 (1965)

passim

Hesthagen v. Harby, 78 Wn. 2d 934 (Wash.
1971)
7, 11, 18, 19
Estate of Bowers, 132 Wn. App. 334 (Wash. Ct.
App. 2006)
9, 10, 12
Estate of Little, 127 Wn. App. 915 (Wash. Ct.
App. 2005)

12

Parker v. Benoist, 160 So. 3d 198 (Miss.
2015)
13, 16, 21
CONSTITUTIONAL PROVISIONS
U.S. Const. amend. XIV, Sect I

2

Washington State Constitution Article I, Section
10 Administration of Justice

2

STATUTES AND RULES
RCW 11.20.070 (Lost Wills)
RCW 11.96A.110 (Notice in Probate)

2, 4, 7, 19, 20
passim

1
IN THE
SUPREME COURT OF
THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
♦

OPINIONS BELOW
The opinion of the highest state court to review the
merits appears at Appendix A to the petition and is unpublished.
The opinion of the Division I Appellate Court appears at Appendix A to the petition and is unpublished.
♦

JURISDICTION
The date on which the highest state court decided
my case was Feb 25, 2019. A copy of that decision appears at Appendix A.
A timely petition for rehearing was thereafter denied on the following date: Sep 4, 2019, and a copy of
the order denying rehearing appears at Appendix C.
This Court has jurisdiction under 28 U.S.C.
§ 1254(1).
♦

2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Constitution 14th Amendment Sect I: No
State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the laws.
Washington State Constitution Article I, Section
10 Administration of Justice: Justice in all cases shall
be administered openly, and without unnecessary delay.
RCW 11.20.070: Proof of lost or destroyed will
(1) If a will has been lost or destroyed under circumstances such that the loss or destruction does not
have the effect of revoking the will, the court may take
proof of the execution and validity of the will and establish it, notice to all persons interested having been
first given.
RCW 11.96A.110: Notice in judicial proceedings
under this title requiring notice: (1) Subject to RCW
11.96A.160, in all judicial proceedings under this title
that require notice, the notice must be personally
served on or mailed to all parties or the parties' virtual
representatives at least twenty days before the hearing on the petition unless a different period is provided
by statute or ordered by the court. The date of service

3
shall be determined under the rules of civil procedure.
Notwithstanding the foregoing, notice that is provided
in an electronic transmission and electronically transmitted complies with this section if the party receiving
notice has previously consented in a record delivered
to the party giving notice to receiving notice by electronic transmission. Consent to receive notice by electronic transmission may be revoked at any time by a
record delivered to the party giving notice. Consent is
deemed revoked if the party giving notice is unable to
electronically transmit two consecutive notices given
in accordance with the consent.
(2) Proof of the service, mailing, or electronic delivery required in this section must be made by affidavit or declaration filed at or before the hearing.
♦

STATEMENT OF THE CASE
A copy of a missing will was admitted to probate
on Dec 19, 2016 App F, G by Stephanie Inslee, by and
through her attorney without a hearing or notice to
any interested parties that the original will was missing, what was in the missing will, that it was being
admitted to probate on that date, or otherwise informing any interested party of their rights. The ex parte
petition so granted on that date also failed to name
the testator's (Margaret) only daughter, Indira
Raichoudhury (residing in Oklahoma since 2007 Response Indira June 19, 2017 pg. 25 Declaration of

4
Indira'), as an interested party App F. This was in contravention to RCW 11.20.070, and 11.96A.110, and the
14th Amendment of the U.S. Constitution. On the date
notice would legally have needed to be delivered Stephanie Inslee was cremating Margaret without permission from family, instruction from the decedent, or any
original documentation APP H.
Khashon Haselrig (also living in Oklahoma since
2007 (Response Indira pg. 32-33 Declaration of Haselrig) brought a motion on Feb 10, 2017 (Motion for Removal of PR of the Estate; Revocation of Testate Jan
25, 2017 pg. 3), to correct the lack of hearing and notice
by returning the probate to its default intestate status
and to name himself as executor due to the initial mishandling of the estate by Stefanie Inslee e.g. admitting
a missing will without notice or hearing APP F, G and
cremating Haselrig's grandmother without meeting
her or bothering to establish her burial wishes in any
way, or informing any family she had died (Declaration
of Steven Avery Feb 7, 2017 pg. 4), H. Inslee also permitted someone not entitled to any property to take
Margaret's cat and have her killed (Declaration of
Stephanie Inslee Re Indira June 26, 2017 pg. 2 1162).
1 Response Indira June 19, 2017 and documents contained is
in regards to the same probate under case number 17-2-00481-9
Whatcom County Superior Court and referenced documents were
merged on appeal through Designation of Clerk's Papers July 12,
2018.
2 Declaration of Stephanie Inslee is in regards to the same
probate under case number 17-2-00481-9 Whatcom County Superior Court and referenced documents were merged on appeal
through Designation of Clerk's Papers July 12, 2018.

5
Haselrig's Feb 10, 2017 motion was denied, however
the lack of notice was not specifically addressed APP
E. Haselrig brought a second motion on Aug 25, 2017
(Motion to Void Fraudulent Admission of Copy Will
June 19, 2017 pg. 4) to restart the probate for willfully
defective notice only and was denied APP B, and subsequently disinherited, even though he was heir to
99% of probate assets since UBC received all non-probate assets which reduced their share of probate assets
to zero APP G, (Inventory and Appraisement: First
Amended April 24, 2017 pg. 3).
Haselrig started an interlocutory appeal after the
order APP B denying his attempt to correct the defective notice, and converted it to an appeal by right after
the order disinheriting him APP D.
Feb 10, 2017 was not the date the missing will was
admitted to probate, it was admitted on Dec 19, 2016
ex parte. The Feb 10, 2017 motion was meant to be a
correction of Dec 19, 2016 ex parte admission of missing will as a matter of law only, not a hearing on the
merits of will validity, it was joined by Indira via counsel.
The effect of continuing the probate with the missing will already admitted was to reverse the moving
and non-moving parties as well as the burden of proof.
The Court has thus far maintained a presumption
that the missing will was not revoked, or not revoked
if validly executed, which is counter to Washington law
Estate of Bowers, 132 Wn. App. 334, 343 (Wash. Ct.
App. 2006). As a result Stephanie Inslee has never

6
acted as a moving party to prove the will she proffers
was not intentionally revoked/destroyed unintentionally.
While the Trial Court and Appellate Court identified that Haselrig's Feb 10, 2017 motion was denied,
neither Court has identified or claimed any documents
support notice was timely given by Stephanie Inslee to
interested parties as directed by RCW 11.96A.110. The
Trial Court actually struck the notice section from its
order APP B, but does say "6. Washington procedural
law, including CR 6 and CR 59(b), does not allow this
Court to reconsider the Order of February 10, 2017, as
the above pleadings were filed and served more than
ten (10) days after February 10, 2017". The Appellate
Court did not directly address Haselrig's notice issue
at all, though it appeared to infer failure to appeal the
denied Feb 10, 2017 motion cured the infirmity in due
process APP A. The Appellate order quotes Haselrig's
captions without addressing attendant arguments,
and then simply states conclusions. The standard of review for probate and statutory disputes in Washington
is supposed to be de novo. Estate of Black, 153 Wn. 2d
152, 161 (Wash. 2004).
No Court has identified by what method Haselrig
has acted in other than good faith, or that any of his
statements are untrue. No Court has identified by
what mechanism the failure to give notice or hold a
hearing for the Dec 19, 2016 copy will admission was
corrected. Haselrig's due process arguments have been
basically ignored, yet it is the basis for all of his

7
argument to this point. Haselrig seeks redress now on
the grounds that:
In the interest of public policy heirs that bring
motions grounded in fact to correct the unlawful actions of executors or trustees should not be subject to
an in terrorem clause, and without evidence of 20 day
prior notice to will admission on Dec 19, 2016 he has
probable cause for this action.
Denial of a motion to correct a due process error does not correct the infirmity and until granted
causes void judgements because such judgements fail
to adhere to the 14th amendment as codified by statutes, specifically RCW 11.96A.110 and RCW 11.20.070.
It is also of note that because. Margaret's actions
became erratic two months before drafting the now
missing will as indicated by a police report (Response
Indira June 19, 2017 pg. 60 Police report), it is believable she destroyed and revoked her will, and absent
other explanation for its loss such circumstance clouds
this probate, Hesthagen v. Harby, 78 Wn. 2d 934, 945
(Wash. 1971). At least until such a time as the presumption of revocation is properly and clearly set and
cogently and clearly overcome.
♦

8
REASONS FOR GRANTING THE PETITION
I. Did the Washington Court err in finding
that an infirmity in due process is cured by
denial of a motion seeking to correct it and
violate the 14th Amendment of the United
States Constitution and contravene Armstrong v. Manzo, 380 U.S. 545, 550 (1965)?
This section describes the need for the U.S. Supreme Court to rule regarding due process violations
as they pertain to will probates. There is strong case
law regarding due process generally, but not specifically or recently in regards to probate law and it appears to be cause for confusion. This document
generally is concerned with the intersection of the 14th
Amendment, notice, and probate law. In that respect
Armstrong v. Manzo is the controlling case law. Like in
Armstrong the Washington State Court has:
"held, in accord with its understanding of the
[State] precedents, that whatever constitutional infirmity resulted from the failure to
give the petitioner notice had been cured by
the hearing subsequently afforded to him
upon his motion to set aside the decree. 371
S.W.2d, at 412. We cannot agree." Id at 551.
The Aug 25, 2017 Probate Court order APP B directly contradicts Armstrong and construes motions to
correct due process with pleadings in general. The Appellate Court appears to do the same but the basis of
their reasoning is not clear APP A. Without proof notice was provided in accord with RCW 11.96A.110 prior

9
to Dec 19, 2016, Haselrig has probable cause for this
case.
The Washington State Court's apparent determination that denial of a motion to correct a failure in
due process (arising from both a lack of notice and lack
of hearing in accordance with RCW 11.96A.110 and
11.20.070) is curative, directly contradicts the U.S. Supreme Court ruling in Armstrong v. Manzo, 380 U.S.
545, 551 (1965) and places a cloud over the estate
Hesthagen 945. The infirmity in due process cannot be
overcome without granting the corrective motion
brought by Haselrig on Feb 10, 2017 because all subsequent decisions rely on a reversed burden of proof and
reversal of moving and non-moving parties Armstrong
552.
It is evident from the Feb 10, 2017 order which
states "No evidence has been submitted that the . . .
Will was lost or destroyed [and revoked]" and "The Letters Testamentary, granted to Stephanie Inslee on Dec
19, 2016, should not be revoked" APP E that the presumption was reversed to presume Stephanie Inslee
was appointed legally and that the missing will was
not revoked. Washington law doesn't require evidence
to establish a presumption, but to overcome it. Both
statute and common law presumes a missing will even
if validly executed is revoked in Washington, "[RCW
11.20.070] requires the proponent of a lost or destroyed
will to prove it was not revoked" Bowers 343 (2006)
(emphasis added). The order demonstrates Stephanie
Inslee has never acted as the moving party, nor has the
burden of proof ever been upon her. As a result "[t]he

10
burdens thus placed upon the petitioner were real, not
purely theoretical." Armstrong at 551.
If Stephanie Inslee gave notice, and acted as the
moving party at the Feb 10, 2017 proceeding, and the
Court applied the correct burden of proof, and ruled in
her favor on the basis of presumed revocation, the order would have read "(some evidence) was submitted
indicating the Will was lost or destroyed (by way of an
event) without intent to revoke. The Letters testamentary should be granted." The Court did not find explanation of a cause that would make the will go missing
unintentionally. It instead jumped to confirming validity of execution, which is not relevant if destroyed and
revoked. Obviously to revoke a will it must have previously existed as a valid document. Valid execution is a
red herring prior to proving an unintentional cause of
loss or destruction. Using valid execution as proof of
unintentional destruction still reverses the burden of
proof from Bowers 343.
The ruling of the Appellate Court as it stands
means that the determination of Armstrong v. Manzo
(1965) does not apply in the State of Washington, and
that the Court, not the statutes or Constitution, has
blanket authority to reverse moving and non-moving
parties and burdens of proof on a whim, and a motion
on a matter of law can immediately become a hearing
on the merits.
Stephanie Inslee not only failed to schedule a
hearing or deliver a reason 20 days prior explaining
why the original will was missing, she never gave one

11
at all APP F, (Inslee Motion Reply Feb 7, 2017). Instead
the Court was given a red herring based on the idea
that Haselrig did not give evidence of revocation,
which is irrelevant because in Washington the presumption is revocation Bowers 343. It was Stephanie
Inslee that needed to explain how the original will
went missing unintentionally, which she failed to do at
any time. The issue would not have been so confused if
the copy of the missing will had not been illegally admitted without notice or hearing on Dec 19, 2016 APP
F, G. The Court has never specified what if any documents constitute notice under RCW 11.96A.110 for the
copy will being admitted on Dec 19, 2016. The Court
has not specified what caused the will to go missing
unintentionally, and if simple execution of a missing
will overcomes presumed destruction it means all
missing executed wills are presumed not revoked, thus
overturning statute and common law. In fact there are
no documents at all prior to Dec 19, 2016 in this case.
Without legal admission of the copy of the missing
will through legal notice and hearing, its admission is
void and judgments derivative from that initial unlawful admission are also void Hesthagen 942 Armstrong
550 because they reverse the burden of proof and moving and non-moving parties from statutory mandates.
Due process is foundational and if police officers
are expected to apprise suspected criminals of their
rights even as they apprehend them, surely an attorney can be expected to comply with statutes directing
them to timely inform interested parties of their rights
in a probate, and to prove they have done so when

12
asked for evidence. Current rulings contravene public
policy because it not only removes the legislature by
rendering statutes meaningless, but it encourages violating the 14th amendment and avoiding notice altogether in order to prevent interested parties from
defending their interests at a meaningful time and
manner Armstrong 552. In this case the 20 days prior
notice specified under RCW 11.96A.110 was reduced to
0 days, since Stephanie Inslee was not the moving
party and merely used her response to confuse the
Court in the three days preceding the Feb 10, 2017 proceeding (PR's Response Feb 7, 2017) without ever proving the missing will was unintentionally destroyed as
required by law Bowers 343.
Of note is a nearly identical case in Washington
State Division I where it was found that a motion to
correct due process is not even considered a will contest as the object is a procedural correction Estate of
Little, 127 Wn. App. 915, 920 (Wash. Ct. App. 2005).
II. Did the Washington Court err against public policy when it failed to recognize a
good faith and probable cause exception to
in terrorem clauses as adopted by most jurisdictions, the Uniform Probate Code, and
the Restatement to the forfeiture clause
for the 2015 will?
This section explains the generally accepted best
practices of States regarding in terrorem clauses and
the need for the U.S. Supreme Court to give a definitive
ruling on the basis of public policy.

13
While numerous states have adopted the good
faith exception on public policy grounds, many of those
states under the Uniform Probate Code, the exception
appears to be applied inconsistently without an authoritative guide. This is problematic because as noted
in Parker v. Benoist, 160 So. 3d 198, 204 (Miss. 2015),
the basis for good faith exceptions is rooted in fundamental tenets of law, and the open administration of
justice. Without good faith exceptions silence frustrates and delays the process of justice.
What follows is an extremely comprehensive analysis of the issue from Parker citing relevant case law
in multiple states including Washington. Absent a ruling from the U.S. Supreme Court it appears the definitive work.
"Courts cannot know whether a will, good on its
face, was made in conformity to statutory requirements, whether the testator was of sound mind, and
whether the will was the product of undue influence,
unless these matters are presented in court. And those
only who have an interest in the will will have the disposition to lay the facts before the court. If they are
forced to remain silent, upon penalty of forfeiture of a
legacy or devise given them by the will, the court will
be prevented by the command of the testator from ascertaining the truth, and the devolution of property
will be had in a manner against both statutory and
common law. Courts exist to ascertain the truth and to
apply it to a given situation, and a right of devolution
which enables a testator to shut the door of truth and
prevent the observance of the law is a mistaken public

14
policy. If, on contest, the will should have been held invalid, the literal interpretation of the forfeiture provision has suppressed the truth and impeded the true
course of justice. If the will should be held valid, no
harm has been done through the contest, except the
delay and the attendant expense.
South Norwalk Trust Co. v. St. John, 92 Conn. 168,
101 A. 961, 963 (1917). That court concluded that a legatee who brings a contest in good faith and upon probable cause should not forfeit his legacy, as "[h] e has
been engaged in helping the court to ascertain whether
the instrument purporting to be the will of the testator
is such." Id.
Several other courts have come to the same conclusion. See Matter of Seymour's Estate, 93 N.M. 328,
600 P.2d 274, 278 (1979) ("[N]o-contest provisions are
valid and enforceable in New Mexico, but they are not
effective to disinherit a beneficiary who has contested
a will in good faith and with probable cause to believe
that the will was invalid."); In re Foster's Estate, 190
Kan. 498, 376 P.2d 784, 786 (1962) ("[A] bona fide belief
in the invalidity of the will and with probable cause
prevents the application of an in terrorem clause as to
a beneficiary under the will."); Hartz' Estate v. Cade,
247 Minn. 362, 77 N.W.2d 169, 171 (1956) (holding that
the existence of a good-faith and probable-cause exception is "more in conformity with the interests of justice
and the dictates of public policy"); Ryan v. Wachovia
Bank & Trust Co., 235 N.C. 585, 70 S.E.2d 853, 856
(1952) (IA] bona fide inquiry whether a will was procured through fraud or undue influence, should not be

15
stifled by any prohibition contained in the instrument
itself."); In re Estate of Cocklin, 236 Iowa 98, 17 N.W.2d
129, 135 (1950) (recognizing that a good-faith and
probable-cause exception to forfeiture clauses was "in
the interest of good public policy"); Dutterer v. Logan,
103 W.Va. 216, 137 S.E. 1, 3 (1927) ("We think there can
be no doubt that the great weight of authority is
against the strict enforcement of forfeitures contained
in devises and bequests. On the contrary, that when
there is probabilis causa litigandi, such forfeitures will
not be enforced. . ."); In re Chappell's Estate, 127
Wash. 638, 221 P. 336, 338 (1923) ("Mt not being denied
that the contest was made in good faith, . . . we are further convinced that appellant had probable cause for
instituting the proceedings he did, and that by so doing
he did not forfeit his legacy."); Tate v. Camp, 147 Tenn.
137, 245 S.W. 839, 842 (1922) (holding that the reasoning of the cases which found that a good-faith and probable-cause exception should apply to will contests
announced "a more equitable and just rule. . . .");
Rouse v. Branch, 91 S.C. 111, 74 S.E. 133, 135 (1912)
("The right of a contestant to institute judicial proceedings upon probable cause to ascertain whether the will
was ever executed by the apparent testator is founded
upon justice and morality."); In re Friend's Estate, 209
Pa. 442, 58 A. 853, 854 (1904) ("The better rule, however, seems to us to be that the penalty of forfeiture of
the gift or devise ought not to be imposed when it
clearly appears that the contest to have the will set
aside was justified under the circumstances, and was
not the mere vexatious act of a disappointed child or
next of kin."). The Uniform Probate Code also has

16
adopted a good-faith and probable-cause exception.
See Unif. Probate Code § 3-905 (1982).
The Restatement (Third) of Property supports the
position that a probable-cause exception should be
made to forfeiture provisions in will contests. Restatement (Third) of Property: Wills and Donative Transfers
§ 8.5 (2003). "A provision in a donative document purporting to rescind a donative transfer to, or a fiduciary
appointment of, any person who institutes a proceeding challenging the validity of all or part of the donative document is enforceable unless probable cause
existed for instituting the proceeding." Id. The Restatement does acknowledge that forfeiture clauses may
serve a valuable purpose in deterring "unwarranted
challenges to the donor's intent by a disappointed person seeking to gain unjustified enrichment," or preventing "costly litigation that would deplete the estate
or besmirch the reputation of the donor," or discouraging "a contest directed toward coercing a settlement—
the so-called strike suit." Id., cmt. B. However, enforcing such a provision without a- probable-cause exception would defeat "the jurisdiction of the court to
determine the validity of a donative transfer." Id. Essentially, the Restatement reasons that unlimited enforceability of forfeiture clauses frustrates the
fundamental purpose of the courts to ascertain the
truth." Parker v. Benoist, 160 So. 3d 198, 204 (Miss.
2015).
California case law is not mentioned in Parker,
but California Probate Code section 21311 also limits
in terrorem clauses on a basis of direct attacks and

17
probable cause. Absent evidence of notice 20 days prior
to Dec 19, 2016 under RCW 11.96A.110, Haselrig has
probable cause for his actions given Hesthagen 945
and Armstrong 551 find the defects caused by defective
notice are not time barred.
III. Does enforcing an in terrorem clause
against a beneficiary who is complaining
of the misconduct, malfeasance, or mistake
of a personal representative, without
checking the claim's validity simply because the clause is generally enforceable
violate public policy, the Washington State
Constitution, and the United States Constitutional due process provisions?
This section describes the need for the U.S. Supreme Court to rule definitively whether or not motions resulting from executor misconduct and to
correct due process violations are de facto bad faith or
if they should be generally exempt from in terrorem
clauses. For a state to apply an in terrorem clause to
such motions and without explanation is to violate the
14th Amendment and deny a "person within its jurisdiction the equal protection of the laws." It is to presume they act on something other than good faith and
further stifle the rights, privileges, and protections
they'd otherwise have if the original defect had not occurred.
The difference in application of in terrorem
clauses between states is not a trivial preference. The
division is between whether the Court is meant to

18
serve justice as bound by the Constitution or to apply
individual clauses or rules at its whim to reach an arbitrary result. If indeed it can dared be argued that the
intent of our system is to be just, then surely the position of the Washington State Courts in this instance is
astray, as the Texas Courts were in Armstrong 545.
The primary expense here is to Haselrig. As beneficiary to 99% of probate assets and only blood heir
named by the copy of the missing will APP G, he cannot
further enrich himself through his actions, nor has he
in any way besmirched or attacked the reputation of
his grandmother. The only reputations besmirched are
of the respondents by their own actions. They have disrespected Margaret in callow destruction of her body
without funeral APP H, carelessly allowed the death of
her pet of over a decade (Declaration of Stephanie
Inslee Re Indira June 26, 2017 pg. 2 16), have failed to
give or prove they gave notice of their actions as required by law, and now disinherit the single blood heir
in the will they claim to support when he reveals them.
Somehow Stephanie Inslee claims Haselrig acts in bad
faith by motioning to correct the cloud placed on the
estate Hesthagen 942 Armstrong 552 Little 922 by her
failing to hold a hearing or give notice to any interested
parties before admitting the copy of the missing and
presumably revoked will on Dec 19, 2016 APP F, G.
The burden is upon the party claiming notice was
given to prove they did so, without which there is probable cause to bring a motion on a due process basis.
There are no documents prior to the missing will being
admitted on Dec 19, 2016 filed in this case, and

19
Armstrong is explicit that denial of a corrective motion
does not cure infirmity in due process caused by failure
of timely notice. Logic tells us that the meaningful time
to be heard is not after a judgement has deprived a
person of privileges, property, or protections, as expressed by the 14th Amendment. To do so casts a cloud
on the estate Hesthagen 945-946 where any interested
party was known to be affected. In this case Haselrig
knows Indira was not notified, because no one was notified a missing will was being admitted to probate Dec
19, 2016. The Court has no cause to assert and has
given no explanation as to why the in terrorem clause
should be applied to Haselrig; it simply found it to be
"generally . . . enforceable" APP A.
Admitting a copy of a missing and presumed revoked will on Dec 19, 2016 APP F, G without notice,
hearing, or any evidence whatsoever that interested
parties were notified of their rights is misconduct
Hesthagen 944. To vex the Court and impede a motion
to correct the due process violation is arguably further
misconduct in delay of justice. The Dec 19, 2016 missing will admission was objectively an illegal action
under RCW 11.96A.110 and RCW 11.20.070, and
knowingly perpetuated for the sole benefit of the executor Stephanie Inslee. Haselrig is heir to 99% of assets
listed in the will and the cloud placed over the estate
as described generally by Armstrong 552 and specifically in Hesthagen 942 would affect primarily him. To
disinherit Haselrig serves no one but those paid to administer the estate to named beneficiaries. Haselrig
is the beneficiary, yet somehow he must fight a

20
presumption that he should be disinherited while
bringing a factually and legally supported case that
would solidify the finality of the probate's final distribution and his interests in it.
Stephanie Inslee may attempt to grandstand that
the case law referenced in this document, and the fact
that she has no original documents of any kind from
Margaret, should be set aside because she served the
will of the testator, yet that is an obvious post facto justification. Stephanie Inslee never met the testator
(Declaration of Stephanie Inslee Re Indira June 26,
2017 pg. 2 916), and Steven Avery who drafted the now
missing will knew so little about his client he omitted
her other grandson entirely and didn't even know his
name (Declaration Certificate of Service by Shepherd
and Allen Jan 19, 2017). Haselrig meanwhile was incorrectly named as a minor without higher education
APP G in the missing will. When at that time he was
already a college graduate and airline pilot (a minor
cannot legally work as an airline pilot), and now is the
author of this document.
It appears the only thing Stephanie Inslee knows
about Margaret was that she wanted to have her only
named blood heir disinherited from her will despite
Margaret presumably knowing he would end up with
nearly everything in it when she set her non probate
assets to UBC. Even if we pretend Stephanie Inslee's
misconduct has been noble, it doesn't change the fact
she violated the 14th amendment rights of known interested parties as framed by statute RCW 11.96A.110
and RCW 11.20.070 thereby damaging the integrity of

21
the estate. There is no evidence Stephanie Inslee gave
notice to anyone prior to will admission on Dec 19,
2016, and there is no evidence Haselrig has made any
claims which are untrue. At the same time Inslee's current counsel continue to claim that time or method of
notice isn't specified (PR's Response Feb 7, 2017 pg. 7),
when RCW 11.96A.110 clearly does specify both time
and method of notice for Washington Title 11 in great
detail.
♦

CONCLUSION
"The trial court could have fully accorded [due process] to the petitioner only by granting his motion to
set aside the decree and consider the case anew. Only
that would have wiped the slate clean. Only that would
have restored the petitioner to the position he would
have occupied had due process of law been accorded to
him in the first place. His motion should have been
granted."
Armstrong v. Manzo, 380 U.S. 545, 551 (1965), after the petitioner lost his original motion on due process and failed to appeal it within the time required by
the rules of his state.
In the interest of supporting the fair and open administration of justice as discussed in Parker (2015),
upholding the necessity of due process as discussed
in Armstrong (1965), and providing a contemporary
example of how the Constitution and public policy

22
intersects with probate law, the petition for a writ of
certiorari should be granted.
Respectfully submitted,
KHASHON HASELRIG, PRO SE
809 NW 153 Terrace
Edmond, Oklahoma 73013
(405) 618-2722
Date: January 28, 2020

